No.

IN THE
SUPREME COURT OF THE UNITED STATES

RODNEY DALE HOOD-PETITIONER
VS.
MATTHEW POSTON-RESPONDENT(S)

PROOF OF SERVICE
I» Rodeny Dal e Hood do, swear or declare that on this date, .July 6, 2021,
as required Supreme Court Rule 29 I have served the end csed MOTION FOR LEAVE TO
PROCEED IN FORMA PAUPERIS and PETITION FOR A WRIT OF CERTIORARI on each party to
the above proceeding or that party's counsel, and on every other person required
to be served, by depositing and envelope containing the above documents in the
United States mail properly addressed

to each of them and with first-class

postage prepaid, or by delivery to a third-part commercial carrier for delivery
with 3 calendar days.
The names and address of those served are as follows:
Matthew Poston, Liberty,

County

Attorney,

1923 Sam Houston, St. Suit 202,

Liberty, Texas 77575.
State Prosecuting Attorney, Stacy Soule, 209 W. 14th St. Rrn 202, Austin, Texas
78701.
I declare under the penalty of perjury that the foregoing is true end correct.
Executed on July 6, 2021.
Rodney t)ale Hoodv

19

